BECKER GALLAGHER
Briefs

and

DONNA ). WOLF, J.D.
JULIE

Records

CERTIFICATE OF SERVICE
I, Donna J. Wolf, hereby certify that 40 copies of
the foregoing Petition for Writ of Certiorari in Kamal
Youkhanna, et al. v. City of Sterling Heights, et al.,
were sent via Three Day Service to the U.S. Supreme
Court, and 3 copies were sent via Three Day Service
and e-mail to the following parties listed below, this
9th day of December, 2019:
Marc D. Kaszubski
Nathan D. Petrusak
O'Reilly Rancilio
12900 Hall Road
Suite 350
Sterling Heights, MI 48313
(586) 726-1000
mkaszubski@orlaw .com
npetrusak@orlaw.com
Anne McClorey McLaughlin
Rosati, Schultz, Joppich & Amtsbuechler
27555 Executive Drive
Suite 250
Farmington Hills, MI 48331
(248) 489-4100
amclaughlin@jrsjlaw.com

Counsel for Respondents

BECKER GALLAGHER LEGAL PUBLISHING INCORPORATED

8790 Governor's Hill Drive

Franklin Square

(800) 890.5001

Suite 102

1300 I Street, NW, Suite 400E

www.beckergallagher.com

Cincinnati, Ohio 45249

Washington, DC 20005

A.

KERSHNER, J.D.

Robert Joseph Muise
Counsel of Record
American Freedom Law Center
3000 Green Road #131098
Ann Arbor, MI 48113
(734) 635-3756
rm uise@americanfreedomlawcenter.org
David Yerushalmi
American Freedom Law Center
2020 Pennsylvania Avenue NW, Suite 189
Washington, D.C. 20006
(855) 835-2352

Counsel for Petitioners

All parties required to be served have been served.
I further declare under penalty of perjury that the
foregoing is true and correct. This Certificate is
executed on December 9, 2019.

Donna J. vVo
Becker Gallagher Leg::blishing, Inc.
8790 Governor's Hill Drive, Suite 102
Cincinnati, OH 45249
(800) 890-5001
Subscribed and sworn to before me by the said
Affiant on the date below designated.

[seal]

